No. 20-1379
In the

Supreme Court of the United States
__________________

SOUTHEASTERN PENNSYLVANIA TRANSIT AUTHORITY,
Petitioner,
v.
CENTER FOR INVESTIGATIVE REPORTING,
Respondent.
__________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

__________________
BRIEF OF AMICUS CURIAE PORT
AUTHORITY OF ALLEGHENY COUNTY IN
SUPPORT OF PETITIONER
__________________
GREGORY J. KROCK
Counsel of Record
MCGUIREWOODS LLP
Tower Two-Sixty
260 Forbes Avenue, Suite 1800
Pittsburgh, PA 15222-3142
(412) 667-6042
gkrock@mcguirewoods.com
Counsel for Amicus Curiae
April 27, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. This Court Has Permitted Transit Agencies to
Impose Blanket Prohibitions on Political
Advertisements for Nearly Fifty Years . . . . . . . . 4
1. The Court’s Ruling in Mansky Did Not
Abrogate Lehman . . . . . . . . . . . . . . . . . . . . . . 6
2. Some Courts Have Mistakenly Misinterpreted
Mansky to Abrogate Lehman . . . . . . . . . . . . . . . 8
B. The Ability to Prohibit Political Speech on Their
Vehicles is Critically Important to Transit
Agencies Like Port Authority. . . . . . . . . . . . . . . 11
1. Like SEPTA, Port Authority Has Faced
Litigation Associated with Political and
Social Speech on Its Vehicles . . . . . . . . . . . . 13
2. Absent Clarity From the Court, Transit
Agencies Might Reluctantly Close Their
Vehicles to More Categories of Advertising . . . . 17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

ii
TABLE OF AUTHORITIES
CASES
Am. Freedom Def. Initiative v. King Cty.,
796 F.3d 1165 (9th Cir. 2015). . . . . . . . . . . . . . . 12
Amalgamated Transit Union Local 85 v. Port
Authority of Allegheny County,
2:20–cv–1471–NR, 2021 WL 164315
(W.D. Pa. Jan. 19, 2021) . . . . . . . . . . . . . . . . . . . 15
American Freedom Defense Initiative v. Suburban
Mobility Authority for Regional Transportation,
978 F.3d 481 (6th Cir. 2019). . . . . . . . . . . . . . . . . 8
American Freedom Defense Initiative v. Washington
Metropolitan Area Transit Authority,
901 F.23 356 (D.C. Cir. 2018). . . . . . . . . . . . . . . . 8
Arkansas Educ. Television Comm’n v. Forbes,
523 U.S. 666 (1998). . . . . . . . . . . . . . . . . . . . . . . 17
Broadrick v. Okla.,
413 U.S. 601 (1973). . . . . . . . . . . . . . . . . . . . . . . . 6
Ctr. for Investigative Reporting v. SEPTA,
337 F. Supp.3d 562 (E.D. Pa. 2018) . . . . . . . . . 15
Ctr. for Investigative Reporting v. SEPTA,
975 F.3d 300 (3d Cir. 2020) . . . . . . . . . . . . . . . . . 6
Lehman v. City of Shaker Heights,
418 U.S. 298 (1974). . . . . . . . . . . . . . . . . . . passim
Minnesota Voters Alliance v. Mansky,
138 S. Ct. 1886 (2018). . . . . . . . . . . . . . . . . passim

iii
People for the Ethical Treatment of Animals v.
Hinckley, Civil Action No. H-20-3681,
2021 WL 982262 (S.D. Ohio Mar. 16, 2021) . . . 11
Pittsburgh League of Young Voters Educ. Fund v.
Port Auth. of Allegheny Cty.,
653 F.3d 290 (3d Cir. 2011) . . . . . . . . . . . . . . . . 14
Pittsburgh League of Young Voters Educ. Fund v.
Port Auth. of Allegheny Cty., No. 2:06–cv–1064,
2009 WL 2366455 (W.D. Pa. July 30, 2009) . . . 13
Ridley v. Mass. Bay Transp. Auth.,
390 F.3d 65 (1st Cir. 2004) . . . . . . . . . . . . . . . . . 12
U.S. Civil Serv. Comm’n v. Nat’l Ass’n of Letter
Carriers, AFL-CIO, 413 U.S. 548 (1973) . . . . . . . 6
White Coat Waste Project v. Greater Richmond
Transit Company,
463 F. Supp. 3d (E.D. Va. 2020) . . . . . . . . . . . . . 10
Zukerman v. U.S. Postal Serv.,
961 F.3d 431 (D.C. Cir. 2020). . . . . . . . . . . . . . . . 9
Zukerman v. U.S. Postal Service,
384 F. Supp. 3d (D.D.C. 2019) . . . . . . . . . . . . . . . 9

1
INTEREST OF AMICUS CURIAE1
Port Authority of Allegheny County (“Port
Authority”) is a state–created entity that owns and
operates buses and rail passenger transportation in
southwestern Pennsylvania. Port Authority maintains
a written advertising policy that its Board of Directors
adopted on April 27, 2012. Like the advertising
standards that Petitioner Southeastern Pennsylvania
Transportation Authority (“SEPTA”) maintains, Port
Authority’s written advertising policy expressly
prohibits it from accepting (among other subject
matters) advertisements that are “political” in nature.
The issue before the Court in this appeal — a
transit agency’s ability to impose a blanket prohibition
of “political” advertisements on its vehicles — has the
potential to uniquely affect transit agencies like Port
Authority. Because Port Authority has decades worth
of experience in administering and applying its
advertising policy in the Commonwealth of
Pennsylvania. Port Authority is also uniquely qualified
to provide the Court with insight as to the practical
implications of the Third Circuit’s ruling that SEPTA
must accept an admittedly–political advertisement
submitted by Respondent Center for Investigative
Research (“CIR”) because SEPTA’s advertising

1

No counsel for a party has authored this brief in whole or in part,
and no person other than Port Authority, its members, or its
counsel have made any monetary contribution intended to fund the
preparation or submission of this brief. Both parties consented to
the filing of this amicus brief, in e–mails from their counsel of
record, after receiving timely notice of Port Authority’s intention
to file an amicus brief.

2
standards are purportedly so vague that they are not
“capable of reasoned application.”
SUMMARY OF ARGUMENT
This case presents an important question regarding
a public transit agency’s right to preclude political
speech in its vehicles. Nearly 50 years ago, this Court
recognized that transit vehicles are different from other
public and designated public fora. In Lehman v. City of
Shaker Heights, 418 U.S. 298 (1974), the Court
recognized that transit riders constitute a “captive
audience” who often have no choice but to utilize the
transit agency’s vehicles as their mode of
transportation. The Court concluded that transit
agencies have a legitimate interest in prohibiting
political advertisements in their vehicles to avoid
imposing political propaganda upon their captive
customers.
Accordingly, the Court upheld the
constitutionality of a transit policy that included a
blanket prohibition of “political” advertisements.
The Court has never abrogated Lehman, which
remains good law. Nevertheless, in reliance upon the
Court’s ruling in Minnesota Voters Alliance v. Mansky,
138 S. Ct. 1886 (2018) — in which the Court favorably
cited Lehman as an example of a lawful prohibition on
political speech — several courts have recently refused
to apply Lehman to disputes involving political
advertisements on transit vehicles. The Third Circuit
refused to do so in this case. In particular, the Third
Circuit concluded that SEPTA’s advertising guidelines
are incapable of reasoned application under Mansky
because they do not contain a detailed written

3
description of the “political” advertisements that
SEPTA prohibits.
The dispute in Mansky did not involve
advertisements thrust upon a captive audience in a
transit vehicle: it involved the prohibition of political
apparel at a polling place during an election. The
dispute in Mansky did not involve a blanket ban of all
political apparel: it involved a partial ban, which only
prohibited political apparel that addressed the specific
candidates or issues involved in that particular
election. Because the state could not provide a logical
and consistent explanation of the manner in which it
identified the subset of political apparel that was
prohibited, the Court struck down the statute as
incapable of reasoned application.
Despite the
significant differences in the nature of the forum, and
the manner in which transit agencies (like SEPTA)
administer their policies, certain courts (like the Third
Circuit in this case) have started to apply Mansky —
and not Lehman — to transit agencies and their ability
(or lack thereof due to this misapplication of Mansky)
to prohibit political advertisements on their transit
vehicles.
While advertising revenue customarily constitutes
a small fraction of a transit agency’s revenue, that
revenue is important. A sizable portion of transit
riders are lower income, elderly, and/or individuals
with disabilities who have no other means of getting
from point A to point B. Advertising revenue is critical
to enable transit agencies to provide cost–effective
services that those individuals require. At the same
time, because transit riders constitute a captive

4
audience, it is important that transit agencies avoid
bombarding them with advertisements that are
reasonably likely to make a portion of the customers
feel uncomfortable or unwelcome. Transit agencies
must be afforded reasonable discretion to draft and
apply manageable advertising polices (that do not
contain pages of detailed definitions of all categories of
prohibited advertisements).
Re–affirming Lehman will provide transit agencies
with the certainty that they require to balance their
need to generate advertising revenue without
interfering with their primary function of providing
reliable and welcoming transportation services to all of
their captive customers. Re–affirming Lehman will
also serve to recognize the explosion of the internet,
social media, and other alternative fora available to
individuals and groups to efficiently and inexpensively
convey their political messages when a transit agency
lawfully rejects their proposed political messages to
protect those captive customers.
ARGUMENT
A. This Court Has Permitted Transit Agencies to
Impose Blanket Prohibitions on Political
Advertisements for Nearly Fifty Years
In Lehman, the Court concluded that it is
reasonable for transit agencies to prohibit all political
advertising within their vehicles. Lehman, 418 U.S. at
303–04, 307. The transit agency’s advertising policy at
issue in Lehman did not define the term “political,” but
instead, succinctly stated “[p]olitical advertisements
will not be accepted.” Id. at 300. In upholding the

5
exclusion of political advertisements, a plurality of the
Court explained: “The city consciously has limited
access to its transit system advertising space in order
to minimize chances of abuse, the appearance of
favoritism, and the risk of imposing upon a captive
audience. These are reasonable legislative objectives
advanced by the city in a proprietary capacity.” Id. at
304. While Justice Douglas agreed that it is reasonable
for transit agencies to preclude political
advertisements, he did not believe that the transit
agency’s policy needed to satisfy a reasonableness
standard. Id. at 307 (“I do not view the content of the
message as relevant to either petitioner’s right to
express it or to the commuters’ right to be free from
it. . . . Since I do not believe that petitioner has any
constitutional rights to spread his message before this
captive audience, I concur in the Court’s judgment.”).
It is not surprising that the Court did not require
the transit agency to define the term “political” in its
advertising policy. Just one year earlier, the Court had
concluded that terms such as “partisan” and “political”
are not impermissibly vague:
Words inevitably contain germs of uncertainty
and, as with the Hatch Act, there may be
disputes over the meaning of such terms in §818
such as “partisan,” or “take part in,” or “affairs
of” political parties.
But . . . there are
limitations in the English language with respect
to being both specific and manageably brief, and
it seems to us that although the prohibitions
may not satisfy those intent on finding fault at
any costs, they are set out in terms that the

6
ordinary person exercising ordinary common
sense can sufficiently understand and comply
with, without sacrifice to the public interest.
Broadrick v. Okla., 413 U.S. 601, 608 (1973); see also
U.S. Civil Serv. Comm’n v. Nat’l Ass’n of Letter
Carriers, AFL–CIO, 413 U.S. 548, 578–79 (1973) (a
liberal standard is necessary because “there are
limitations in the English language with respect to
being both specific and manageably brief.”). For this
reason, a restriction on speech is only
unconstitutionally vague if individuals “of common
intelligence must necessarily guess at its meaning.”
Broadrick, 413 U.S. at 607 (internal citation omitted).
1. The Court’s Ruling in Mansky Did Not
Abrogate Lehman
In its opinion, the Third Circuit suggests that this
Court’s ruling in Mansky stands for the proposition
that the term “political” — if not expressly defined in a
policy or statute restricting speech — is necessarily
incapable of reasoned application. Ctr. for Investigative
Reporting v. SEPTA, 975 F.3d 300, 315–16 (3d Cir.
2020). This suggestion overstates the Supreme Court’s
ruling in Mansky.
Although the statute at issue in Mansky appeared
to prohibit all political buttons and insignias from a
polling place, the state argued the statute was not
intended (and should not be interpreted) to prohibit all
political apparel from a polling location. Mansky, 138
S. Ct. at 1888–89. Instead, the state argued that the
statute only prohibited words and symbols that a
reasonable person would understand to convey a

7
message about matters that voters were being called to
address on that particular election day, which the state
referred to the “electoral choices at issue.” Id.
The Court concluded that the written guidelines for
determining the electoral choices at issue in the
election, and the state’s explanation of those guidelines,
were not just vague but also inherently inconsistent.
Id. at 1889–90. The Court also noted that, because the
standard turned upon whether a typical observer would
perceive the apparel to address an electoral choice at
issue in that election, the decision “may turn in
significant part on the background knowledge and
media consumption of the particular election judge
applying it.” Id. at 1890.2 Accordingly, the Court
rejected the “electoral choices at issue” standard as not
capable of reasoned application because “[a] rule whose
fair enforcement requires an election judge to maintain
a mental index of the platforms and positions of every
a candidate and party on the ballot is not reasonable.”
Id. at 1889, 1891–92.
Importantly, the Court favorably cited Lehman to
demonstrate situation in which a government agency
can lawfully include a blanket ban on political speech
(namely, in transit vehicles). Id. at 1885–86. The
Court clearly did not abrogate Lehman. Instead, the
Court expressly noted that it was the “unmoored” use
of term political in the Minnesota statute in
combination with “the haphazard interpretations the

2

Although they were referred to as “election judges,” the
individuals called upon to enforce the statute were temporary
government employees who worked the polls. Id. at 1883.

8
State has provided in official guidance and
representations to this Court” that caused the Court to
conclude that the “electoral choices at issue” standard
was not capable of reasoned application. Id. at 1888.
2. S ome
Courts
Have
Misinterpreted Mansky
Lehman

Mistak en ly
to Abrogate

The impact of Mansky on transit agencies, and their
right to preclude political advertisements under
Lehman, has caused considerable confusion. For
example, in American Freedom Defense Initiative v.
Suburban Mobility Authority for Regional
Transportation, 978 F.3d 481 (6th Cir. 2019), both the
district court and the Sixth Circuit refused to enjoin a
transit agency’s prohibition of all “political or political
campaign advertising” on the basis that a person of
ordinary intelligence could reasonably understand the
word “political.” Id. at 489. At the summary judgment
stage, however, the Sixth Circuit concluded that this
Court’s intervening ruling in Mansky required a
different conclusion. Id. at 485–86. The Sixth Circuit
interpreted Mansky to require a finding that, absent
written guidance regarding the definition of “political,”
a transit agency’s policy prohibiting all “political
advertisements” is necessarily incapable of reasoned
application. Id. at 494–97.
In American Freedom Defense Initiative v.
Washington Metropolitan Area Transit Authority, 901
F.23 356 (D.C. Cir. 2018), the D.C. Circuit similarly
concluded that Mansky now requires transit agencies
to provide a written definition of the term “political” in
order to implement a constitutional policy prohibiting

9
political advertisements. Id. at 372. The policy at
issue prohibited advertisements (1) that support or
oppose a political party or candidate and (2) intended
to influence the public on a particular issue. Id. at 361.
The district court granted the transit agency’s motion
for summary judgment on the basis that its policy was
reasonable and viewpoint neutral as a matter of law.
Id. Following Mansky, however, the D.C. Circuit
reversed and remanded the case for further
proceedings.
Id. at 372–73.
The D.C. Court
emphasized that transit agencies must now
demonstrate that their officials are “guided by
objective, workable standards” to identify the
prohibited political advertisements. Id. at 372 (citing
Mansky).3
3

Although it did not involve a transit agency, the rulings in
Zukerman v. U.S. Postal Service, 384 F. Supp. 3d 44 (D.D.C. 2019),
are instructive. When the United States Postal Service enacted a
policy that allowed customers to create customized postage
stamps, it prohibited them from including “political, religious,
violent or sexual content.” Id. at 52. In distinguishing Mansky
and upholding restriction, the district court noted that (1) the state
in Mansky did not interpret the statute to prohibit all political
apparel and (2) the state could not coherently explain the manner
in which it identified the prohibited political apparel from the
permitted political apparel. Id. at 64–65, 67 (“Unlike the
political–apparel ban in Mansky, the Regulations are not fatally
indeterminate; rather, as a categorical ban on political speech,
they provide sufficiently clear guidance on what can come in and
what must stay out.”). However, the D.C. Circuit reversed.
Zukerman v. U.S. Postal Serv., 961 F.3d 431 (D.C. Cir. 2020). The
D.C. Circuit interpreted Mansky to stand for the proposition that,
absent a written definition of political (in either the policy itself or
guidelines provided to the employees administering the policy), a
blanket position of political speech is always incapable of reasoned
application. Id. at 448–49.

10
In contrast, the district court in White Coat Waste
Project v. Greater Richmond Transit Company, 463 F.
Supp. 3d 661 (E.D. Va. 2020), rejected the contention
that Mansky abrogated Lehman in the context of a
transit vehicle. The district court recognized that other
courts had interpreted Mansky to require a transit
agency’s advertising policy to define the term “political”
in order to pass the First Amendment’s reasonableness
test. Id. at 711–12. Nevertheless, the district court
concluded that Lehman still applies in the transit
context such that a transit agency can lawfully include
a blanket ban on “political” advertisements:
The consistent application of Lehman to First
Amendment review of advertising in public
transportation systems — finding a ban on
political advertising facially constitutional —
delivers an incontrovertible circumstance (or set
of instances examined in a line of cases) under
which GRTC’s Advertising Policy “would be
valid.” With Lehman and its progeny intact, the
Court cannot deem GRTC’s policy facially
unconstitutional on vagueness grounds. Simply
put, a significant number of courts continue to
interpret Lehman as allowing bans on political
advertisements in busses or mass transit
forums. Such a ban, then, becomes facially valid
under the law.
Id. at 710–11.
As a result of these divergent rulings, one district
court recently noted the need for guidance as whether
(and, if so, the extent to which) this Court’s opinion in
Mansky affects the longstanding Lehman ruling.

11
People for the Ethical Treatment of Animals v.
Hinckley, Civil Action No. H–20–3681, 2021 WL
982262, at *9 (S.D. Ohio Mar. 16, 2021). In its motion
to dismiss, the transit agency in PETA argued that
(1) its blanket ban on political advertisements is
reasonable as a matter of law under Lehman and
(2) Mansky did not abrogate Lehman, which remains
the law with respect to the transit vehicles. Id. at
*1–2. The district court acknowledged that the Mansky
court did not overrule Lehman, but nevertheless denied
the motion to dismiss, stating that Mansky “expanded
on what is needed for a ‘reasonable’ restriction on bans
of ‘political’ speech.” Id. at *7, 12. The district court
noted that the Mansky opinion “does not provide clear
guidance on how to reconcile its holding with its older
public transit cases.” Id. at *9.
B. The Ability to Prohibit Political Speech on
Their Vehicles is Critically Important to
Transit Agencies Like Port Authority
Port Authority owns and operates a passenger
transportation system in southwestern Pennsylvania.
At this time, roughly 2,700 employees operate,
maintain, and support Port Authority’s bus, light rail,
incline, and paratransit services. While those services
are available to anyone traveling in Allegheny County,
a significant portion of Port Authority’s customer base
includes disabled, elderly, and lower income
individuals.
Port Authority also contracts with
Pittsburgh Public Schools to provide passes for children
to use Port Authority vehicles to travel to and from
school on a daily basis (in lieu of a traditional yellow
school bus).

12
Port Authority’s mission is to provide reliable, safe,
welcoming, and cost–effective transportation services
to all of its customers. This Court has recognized these
important aspects of public transportation. Lehman,
404 U.S. at 303 (noting that the city “must provide
rapid, convenient, pleasant, and inexpensive service to
the commuters of Shaker Heights”). Port Authority’s
ability to raise revenue by selling advertising space on
its vehicles is helpful in satisfying its mission. While
Port Authority’s advertising revenues constitute only
a small portion of its annual revenues, those additional
revenues nevertheless contribute to Port Authority’s
ability to provide cost effective transportation to
individuals who cannot afford other means of
transportation.
The ability to prohibit political and certain other
issue–oriented advertisements is of critical importance
to Port Authority. As the Court recognized almost 50
years ago, Port Authority’s customers are unique in
that they constitute a captive audience. Lehman, 418
U.S. at 302 (“The streetcar audience is a captive
audience. It is there as a matter of necessity, not of
choice.”). As one justice noted, “Buses are not
recreational vehicles used for Sunday chautauquas as
a public park might be used at holidays for such a
purpose; they are a practical necessity for millions in
our urban centers.”
Id. at 307 (Douglas, J.,
concurring); see also Am. Freedom Def. Initiative v.
King Cty., 796 F.3d 1165, 1170 (9th Cir. 2015) (“Public
transit riders are, by necessity, a ‘captive audience.’”)
(citation omitted); Ridley v. Mass. Bay Transp. Auth.,
390 F.3d 65, 72 (1st Cir. 2004) (“For many riders, the
MBTA is the only transportation option.”).

13
Like other transit agencies, Port Authority has long
prohibited political advertisements in order to
minimize the “risk of imposing upon a captive
audience” and subjecting those captive customers to the
“blare of political propaganda.” See Lehman, 418 U.S.
at 304. Port Authority therefore strives to balance its
desire to raise supplemental revenue with its primary
function of providing reliable, safe, and welcoming
transportation services to its customers.
1. Like SEPTA, Port Authority Has Faced
Litigation Associated with Political and
Social Speech on Its Vehicles
Like SEPTA, Port Authority has periodically been
forced to defend its decision to prohibit certain speech
on its vehicles. In 2006, a prospective advertiser sued
Port Authority for refusing to accept an advertisement
regarding the voting rights of ex–felons. See Pittsburgh
League of Young Voters Educ. Fund v. Port Auth. of
Allegheny Cty., No. 2:06–cv–1064, 2009 WL 2366455
(W.D. Pa. July 30, 2009).
Port Authority’s
then–existing advertising policy permitted it to accept
only commercial advertisements (and expressly
prohibited political advertisements).
Id. at *2.
Although the voting advertisement was admittedly
non–commercial, the trial court required Port
Authority to accept that advertisement. Id. at *18.
The trial court emphasized in its ruling that Port
Authority did not define the term “political” in its
advertising policy. Id. at *13, 17 (noting that “the
Advertising Policy fails to define the term ‘political’ or
‘offensive’ or provide any guidance to potential
advertisers or Port Authority employees about how to

14
apply those terms”). On appeal, and despite Lehman,
the Third Circuit relied upon the fact that Port
Authority’s policy did not define the term “political” as
a basis for upholding the trial court’s decision.
Pittsburgh League of Young Voters Educ. Fund v. Port
Auth. of Allegheny Cty., 653 F.3d 290, 299 (3d Cir.
2011) (suggesting that it could reject similar
advertisements in the future if “Port Authority were to
develop more precisely phrased written guidance on the
ads for which it will sell advertising space”).
As a result of the voting litigation, Port Authority
amended its advertising policy effective April 27, 2012.
Port Authority elected to remove the restriction on
non–commercial advertisements, but retained the
prohibition on political advertisements. In order to
alleviate concerns that the trial court had raised, Port
Authority provided written guidance in the new policy
to clarify that political advertisements include:
advertisements involving political figures or
candidates for public office, advertisements
involving political parties or political affiliations,
and/or advertisements involving an issued
reasonably deemed by the Authority to be
political in nature in that it directly implicates
the action, inaction, prospective action, or
policies of a government entity (such as
advertising involving abortion, gun control, gay
marriage, or Marcellus Shale drilling).
It is Port Authority’s understanding that SEPTA
thereafter updated its advertising guideless to include
similar (albeit not identical) language to provide
guidance regarding SEPTA’s interpretation of the term

15
“political.” See Ctr. for Investigative Reporting v.
SEPTA, 337 F. Supp.3d 562, 573 (E.D. Pa. 2018).
However, in this lawsuit, the United States District
Court for the Eastern District of Pennsylvania rejected
and struck certain of the language that SEPTA had
included to provide guidance as to the advertisements
that it considered to be “political.” Id. at 604–05.
Transit agencies are therefore in a conundrum. On
one hand, despite this Court’s longstanding ruling in
Lehman, some courts have recently concluded that
advertising policies that succinctly prohibit “political”
advertisements are not capable of reasoned application.
On the other hand, other courts have rejected (and
stricken) language intended to provide guidance as to
the interpretation of the term “political” in an
advertising policy, suggesting that such guidance
impermissibly affords the transit agency with greater
(and not less) discretion to unlawfully reject disfavored
advertisements.
In addition, Port Authority is currently facing
litigation in which the trial court departed from
Lehman regarding the reasonableness of protecting
captive transit customers from potentially
uncomfortable subject matters. In Amalgamated
Transit Union Local 85 v. Port Authority of Allegheny
County, 2:20–cv–1471–NR, 2021 WL 164315 (W.D. Pa.
Jan. 19, 2021), certain Port Authority employees (and
their union) challenged the constitutionality of Port
Authority’s uniform policy. That policy prohibits Port
Authority employees from wearing masks or face
coverings of their choice while on duty, including
masks containing political or social protest messages.

16
Id. at *1. The trial court granted the union’s motion for
preliminary injunction, and thereby forced Port
Authority to allow its on–duty employees to wear
facemasks supporting the Black Lives Matter social
protest movement. Id. at *23.4 In its opinion, the trial
court suggested that Port Authority’s uniform policy is
deficient because it does not define the term “political.”
Id. at *8 n.5 (citing Mansky for the proposition that any
policy that bans speech defined as “political” is
unconstitutionally vague).
More disturbingly, the trial court disregarded the
long–established principle set forth in Lehman that it
is reasonable to shield captive transit customers — who
ride the vehicles out of necessity, rather than choice —
from exposure to political or social protest messages.
The trial court concluded the exact opposite. The trial
court concluded that Port Authority employees have a
First Amendment right, while on duty and acting as
Port Authority’s representative, to thrust their political
and protest messages upon Port Authority’s captive
customers. Id. at 814–20. Nowhere in its lengthy
opinion did the trial court even mention Port
Authority’s significant interest (as recognized in
Lehman) in protecting the interests of its captive
customers.

4

The matter is currently on appeal to the United States Court of
Appeals for the Third Circuit at Docket No. 21–1256.

17
2. Absent Clarity From the Court, Transit
Agencies Might Reluctantly Close Their
Vehicles to More Categories of Advertising
Port Authority is not the only transit agency that
relies upon advertising revenues to defray the costs of
its services. To the contrary, most transit agencies
have a significant need to supplement their revenues
by permitting some (but not all) advertisements on
their vehicles. In order to continue to rely upon
advertising revenue, it is important to transit agencies
that the Court reaffirm the conclusion set forth in
Lehman that transit agencies (1) are unique in light of
their captive customers and (2) can lawfully adopt
policies that prohibit “political” advertisements or
speech on their vehicles, without providing a detailed
written definition of advertisements that are “political.”
Absent such guidance, transit agencies might
reluctantly impose further restrictions on the
advertisements that they will accept. For example,
Port Authority may have to consider returning to a
more restrictive policy that permits only commercial
advertisements. But doing so would prohibit important
public service announcements and appropriate
non–commercial messages on subject matters that Port
Authority does not consider to be problematic. This
Court has long recognized that deferring to the
government’s reasonable discretion in determining the
subject matters to permit on its property serves to
promote — rather than frustrate — First Amendment
principles. Arkansas Educ. Television Comm’n v.
Forbes, 523 U.S. 666, 680 (1998). As the Court has
explained:

18
[W]e encourage the government to open its
property to some expressive activity in cases
where, if it faced an all–or–nothing choice, it
might not open the property at all. That this
distinction turns on governmental intent does
not render it unprotective of speech. Rather, it
reflects the reality that, with the exception of
traditional public fora, the government retains
the choice of whether to designate its property
as a forum for specified classes of speakers.
Id.
Like Port Authority, SEPTA’s advertising standards
demonstrate its intent to prohibit all political
advertisements. If a transit agency’s intent is not
honored, and it is exposed to the possibility that it will
be forced to accept certain political advertisements
unless it prepares a detailed written explanation of the
precise political advertisements that are prohibited,
transit agencies may be forced to further close the
forum and limit even more types of speech. It is critical
that the Court weigh in to provide transit agencies,
prospective litigants, and the circuit and district courts
with clear guidance as to the current state of U.S.
Supreme Court law regarding the ability of transit
agencies to prohibit political advertisements on their
vehicles.

19
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
GREGORY J. KROCK
Counsel of Record
MCGUIREWOODS LLP
Tower Two-Sixty
260 Forbes Avenue, Suite 1800
Pittsburgh, PA 15222-3142
(412) 667-6042
gkrock@mcguirewoods.com

